BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL.,

Petitioners,
V.

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Amici Curiae Securities and
Financial Markets Association, Bank Policy Institute,
American Bankers Association, and U.S. Chamber of
Commerce in Support of Petitioners contains 3,420
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 24, 2020.

DonnaJ. Wo
Becker Gallagher Leg
ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, Slate of Ohio

My Commission Expires
February 14, 2023

